      ADVISORY REPORT
  COSTS CLAIMED BY THE STATE
      OF SOUTH CAROLINA,
    DEPARTMENT OF NATURAL
  RESOURCES AND THE MARINE
   RESOURCES DIVISION, UNDER
   FEDERAL AID GRANTS FROM
   THE U.S. FISH AND WILDLIFE
  SERVICE FROM JULY 1, 1996 TO
           JUNE 30, 1998




AUGUST 2002     Report No. 2002-E-0007
                                                                    X-GR-FWS-0022-2002

            United States Department of the Interior
                       OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20240

                                                                             August 6, 2002



                             ADVISORY REPORT

Memorandum

To:        Director
           U. S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Advisory Report on Costs Claimed by the State of South Carolina
           Department of Natural Resources and the Marine Resources Division Under
           Federal Aid Grants from the U.S. Fish and Wildlife Service from July 1, 1996
           through June 30, 1998 (No. 2002-E-0007)

                                     Introduction
       This report presents the results of our performance of procedures to review
another audit agency’s work related to costs claimed by the State of South Carolina
Department of Natural Resources and the Marine Resources Division (Department) under
Federal Aid grants from the U.S. Fish and Wildlife Service (FWS) for the period July 1,
1996 to June 30, 1998.

Background and Scope

        The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the
Federal Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777), (the Acts),
authorize FWS to provide Federal assistance grants to states to enhance their sport fish
and wildlife programs. The Acts provide for FWS to reimburse the states up to 75
percent of all eligible costs incurred under the grants. The Acts specify that state hunting
and fishing license revenues cannot be used for any purpose other than sport fish and
wildlife activities or the administration of the state’s fish and game agencies. In addition,
FWS provides grants to the states under the Clean Vessel Act and the Endangered
Species Act.
         In June 2001, another audit agency prepared a draft audit report entitled “Audit of
the South Carolina Federal Aid Program Grants and Payments Awarded by the U.S. Fish
and Wildlife Service, Division of Federal Aid, Fiscal Years 1997 and 1998” to the
Department. The scope of its audit work, as stated in the announcement letter to the
Department, was to evaluate (1) the adequacy of the Department’s accounting system as
it relates to the accumulation and reporting of costs charged to grants; (2) the accuracy
and eligibility of the direct costs claimed by the Department under the Federal Aid grant
agreements with FWS; (3) the adequacy and reliability of the Department’s hunting and
fishing license fees collection and disbursement process; and (4) the adequacy of the
Department’s purchasing system and related internal controls. The audit was also to
include an analysis of other issues considered to be sensitive and/or significant to FWS.
The audit work at the Department covered claims totaling approximately $21 million on
FWS grants that were open during the Department’s fiscal years ending June 30, 1997
and 1998 (see Appendix 1). The audit agency’s agreement with FWS expired before
issuance of its final report to the State of South Carolina. However, the State was
provided an unsigned copy of the draft report in June 2001 and presented a written
response in June 2001.


        From 1996 through September 2001, the audit agency conducted audits of Federal
Aid grants under a reimbursable agreement with FWS. FWS did not renew or extend its
agreement with the audit agency, which expired on September 30, 2001. At the time of
expiration, final audit reports on several uncompleted audits had not been issued and the
audits were in various stages of the audit and reporting processes. The audit agency
indicated in a September 28, 2001 memorandum to the file that its supervisors had not
reviewed the working papers for the South Carolina audit to ensure that (1) sufficient,
competent and relevant evidence was obtained, (2) evidential matter contained in the
working papers adequately supported the audit findings in the report, and (3) sound
auditing techniques and judgment were used throughout the audit.

        On September 20, 2001, FWS and the Department of the Interior (DOI) Office of
Inspector General (OIG) entered into an Intra-Departmental Agreement under which
FWS requested the OIG to (1) review the audit work performed by the audit agency
including its working papers, summaries and draft reports for these audits and (2) issue
reports on the findings that were supported by the working papers. Accordingly, our
review was limited to performing the procedures set forth in the Agreement and our
conclusions presented in the report are limited to findings substantiated by the working
papers. We did not perform any additional audit work of the grantee’s records and the
limited work performed under these procedures does not constitute an audit by the OIG in
accordance with Generally Accepted Government Auditing Standards.


       Significant findings impacting South Carolina’s administration of the Federal Aid
program are presented in the body of the report and other management issues and
observations, which may require corrective action, are presented in Appendix 2. In




                                           2
addition, we have included in Appendix 3 a list of the findings included in the draft
report, along with the results of our corresponding analysis.


                                 Results of Review

       The working papers disclosed the following:

   •   Costs totaling $56,280 (Federal share) were questioned because they were
       incurred outside of the grant period ($32,490), represented payments to a sub
       grantee that were later refunded to the Department ($13,468), and claimed in
       excess of the Federal share ($10,322).

   •   The Department may not have received interest on license revenues.

   •   The Department did not adequately account for personal property acquired with
       Federal Aid funds.

A. Questioned Costs

       The working papers identified questioned costs of $56,280 (Federal share) as
follows:

        1. Out-of-Period Costs. Costs totaling $32,490 (Federal share) were questioned
because the costs were incurred prior or subsequent to the time period covered by the
grant to which the costs were charged. Office of Management and Budget (OMB)
Circular A-87, Cost Principles for State, Local and Indian Tribal Governments,
Attachment A, Part C, states that “to be allowable costs must conform to any limitations
or exclusions set forth in Federal laws and conditions of the Federal award.” Each grant
had a specified time period for the completion of work and there was no evidence that
FWS had authorized any deviations. The questioned costs are summarized below:

                 Grant         Amount                   Project Title

               E-1-17            $5,000          Long Leaf Pine
               E-1-18             5,000          Long Leaf Pine
               E-1-18             1,990          Lake Jocassee Caddisfly
               E-1-19             5,000          Long Leaf Pine
               E-1-19            15,500          Carolina Heelsplitter
               Total           $32,490




                                          3
       The draft report recommended that the Department reimburse FWS for the
questioned amounts and improve its monitoring of grant costs.
Department’s Response:

        The Department agreed that the costs were incurred outside the grant periods and
offered to discuss the appropriate corrective action with FWS. However, the Department
did not concur that the costs should be reimbursed stating that the total amount drawn
down was for eligible projects under the program and the work was completed.

Office of Inspector General Comments:

       The Department’s response agreed with the basis of the finding. The eligibility of
these costs for reimbursement will be resolved by FWS.

Recommendation:

         We recommend that FWS resolve the $32,490 (Federal share) in out-of-period
costs.

       2. Refunded Costs. Costs totaling $13,468 (Federal share) were questioned
because the Department did not credit the grant for a refund it received. The Department
had an agreement with the University of Georgia Research Foundation to conduct a
Carolina Heelsplitter project under Grant E-1-17. Since the Foundation did not
accomplish the agreement objectives, it only charged the Department $11,532 for
incurred costs. Although the Federal share of the project budget was only $21,856, the
working papers disclosed that the Department drew down on its letter of credit $25,000
and paid the Foundation the entire amount. The Foundation refunded $13,468 to the
Department but this amount was never repaid to FWS.

      The draft report recommended the Department refund the questioned amount to
FWS and improve its monitoring of grant costs.

Department’s Response:

        The Department agreed that the $13,468 was returned by the Foundation and
stated that it planned to use the funds for a new project approved by FWS.

Office of Inspector General Comments:

       The method of resolving the $13,468 refunded to the Department will be
determined by FWS.



                                         4
Recommendation:

       We recommend the FWS resolve the $13,468 of questioned costs.

        3. Excess Drawdowns. Federal Aid reimbursements of $10,322 were questioned
in the draft report because they were drawn down on the Department’s letter of credit in
excess of the Federal share indicated in the agreement for Grant F-25-12. The Code of
Federal Regulations (50 CFR 80.12) states that “Federal participation is limited to 75
percent of eligible costs incurred in the completion of approved work or the Federal share
specified in the project agreement, whichever is less”. The $10,322 in questioned costs
was computed as follows:


              Federal Share in Grant Agreement (a)                $ 50,000
              Total Cost in Grant Agreement (b)                    137,000
              Federal Share Per Grant Agreement (c=a/b)             36.50%
              Total Eligible Costs Claimed (d)                    $106,366
              Federal Share of Costs Claimed (e=cxd)              $ 38,820
              Amount Drawn Down from Federal Aid (f)                49,142
                  Questioned Costs (f-e)                          $ 10,322


        The draft report recommended that the Department refund the questioned amount
to the FWS.

Department’s Response:

        The Department concurred with the finding and explained that the overdraw of
funds occurred because of an oversight and, the Department’s Grant Section did not
request an adjustment to the original budget. Consequently, the amount drawn down was
based on the budgeted Federal share and not the actual costs incurred. However, the
Department disagreed with the recommendation to refund the questioned amount, stating
that since all costs were allowable and the project was completed, FWS should recognize
the total drawdown of Federal funds as allowable.

Office of Inspector General Comments:

        We noted that the grant agreement identified the total project costs ($137,000)
and the costs to be funded by FWS ($50,000) and the State ($87,000). However, the
agreement did not specifically cite a Federal cost sharing percentage. Therefore, it was
not clear in the agreement whether the Federal share was limited to 36.5 percent of


                                           5
incurred costs or whether the Department was entitled to reimbursement of the entire
$50,000. Therefore, FWS should determine the appropriate Federal share of costs
applicable to this grant.

Recommendation:

       We recommend that the FWS resolve the $10,322 in questioned costs.

B. Interest on License Revenues

        License revenues were placed in the State Treasury and earmarked for the
purposes of restoration, conservation, management and enhancement of wildlife and
fisheries resources. Interest was earned on the amounts deposited, but the interest earned
on license revenue was not returned to the Department. The Code of Federal Regulations
(50 CFR 80.4) requires that “Revenues from license fees paid by hunters and fishermen
shall not be diverted to purposes other than administration of the State fish and wildlife
agency.” The regulation further states that license revenues include income from interest
earned on license revenues.

       Computations in the working papers estimated the interest for fiscal years 1997
and 1998 to be $620,994 and recommended that the State return the foregone interest
income to the Department. However, we could not verify the validity of this amount.

Department’s Response:

        The Department responded that it receives funds appropriated from the General
fund (about $31 million was budgeted for FY 2001) in addition to license fees, so that
“technically” interest earned on license fees was given to the Department through the
annual appropriation. In addition, during the 2001-2002 budget process, the Department
requested an amendment from the State Legislature specifying that interest earned on
license fees be appropriated to the Department. As a result, the Legislature agreed to
appropriate the interest earned on license fees to Department as a separate line item.

Office of Inspector General Comments:

        While the Department’s position that appropriations from the General fund
compensated for the interest earned on license revenues may be valid, we were unable to
substantiate the accuracy of the amount of interest earned as reported in the draft report
or the amounts of General fund revenues received for the administration of the
Department’s fish and game activities.

Recommendations:



                                          6
       We recommend that the FWS:

        1. Ensure that sufficient unrestricted General fund revenues were received during
the period in question to compensate for interest that was not received by the Department.

       2. Ensure that the State has established a requirement that all future interest
earned on license fees is appropriated to the Department as a separate line item to be used
in administering the State’s fish and wildlife programs.

C. Asset Management

        The working papers concluded that the Department did not perform a physical
inventory of assets and that property records were not adjusted on a timely basis for
assets that had been transferred or stolen.

       The Department used an annual self-reporting inventory process whereby
employees were required to verify a listing of assets assigned to them and report any
discrepancies. Under this process, the person to whom the asset is assigned is also the
one responsible for reporting on its existence and condition. The lack of segregation of
responsibilities is an internal control weakness in the asset management system.

       In addition, the Department did not make timely adjustments to its property
records for assets reported as transferred or stolen during the self-reporting inventory
process, even though the employees involved stated that they reported the status of the
items on every self-inventory as required. Some examples include:

       •   A form indicating the transfer of a color graphics monitor from Fisheries
           District III to Data Processing was completed in November 1995 but the asset
           (#G14571) was still assigned to the District.
       •   A personal computer (#G14712) was reported as salvaged equipment in
           November 1998 but was still assigned to Fisheries District V.
       •   A 20 gauge shotgun (#G13185) was reported as stolen in December 1991 but
           was still assigned to Hunter Education.

       The following items or related paperwork could not be located:

           •   Laptop (#G20541)
           •   Personal computer (#G22509)
           •   Personal computer (#G20710)
           •   Personal computer (#G20683)

        The draft report indicated that steps were being taken by the Department’s
internal auditor to conduct an inventory. The report recommended that the Department



                                          7
perform a complete physical inventory every 2 years and update its property records on a
timely basis to ensure that assets are being used solely for authorized purposes.

Department’s response:

        The Department stated that since the establishment of the Audit Services Section
within the Department in January 1998, an annual physical inventory of fixed assets has
been conducted. As part of the inventory process, the section:

    •   Physically verified a sample of equipment inventory,
    •   Confirmed properly completed Self-Reported Inventory forms,
    •   Verified that the equipment’s value, description and location are accurately
        recorded in the Fixed Asset System, and
    •   Confirmed that the equipment is properly safeguarded.

       The Section will continue to ensure that future work will include performing a
physical inventory of a sample of all assets purchased with Federal Aid funds and
reconciling results to property records at least once every 2 years as well as review the
annual Self-Inventory process.

Office of Inspector General Comments:

        The actions identified in the Department’s response should improve overall asset
management. Due to the significance of the issues raised, we believe that the Department
should conduct a complete physical inventory of all equipment purchased with Federal
Aid funds to establish an accurate, current and complete listing of property upon which
its planned actions and reconciliation can be based.

Recommendation:

        We recommend that the FWS ensure that the Department perform a complete
physical inventory and update its property records to establish a baseline for future
actions planned.

D. Labor System

        The draft report stated that the Department’s labor system did not record actual
labor costs charged to Federal Aid grants. Instead, it was the Department’s practice to
charge budgeted labor amounts to the grants. The draft report stated that as a result of
this deficiency, the auditors could not attest to the accuracy of the labor costs charged to
Federal grants during the audit period.




                                           8
        OMB Circular A-87, Attachment B, Section 11(h)(4) states “where employees
work on multiple activities or cost objectives, a distribution of their salaries or wages will
be supported by personnel activity reports or equivalent documentation which meets the
standards in subsection (5).” Subsection 5 states that “personnel activity reports or
equivalent documentation must meet the following standards: (a) They must reflect an
after-the-fact distribution of the actual activity of each employee, and (b) They must
account for the total activity for which each employee is compensated.” The report also
stated that Department did not have formal written procedures describing the proper
method to control time charges for personnel services.

       The draft report recommended that the Department (1) develop written procedures
and adequate internal controls to address all aspects of the Department’s timekeeping
process and (2) implement a timekeeping system to accurately reflect employees’ actual
time charges and ensure that grants are only charged actual costs.

Department’s Response:

        The Department responded that it has implemented an electronic time and effort
reporting system to track actual labor charges by hour, project and grant where required.
The Department added that written procedures have been established and instruction was
provided to all personnel for the new system.

Office of Inspector General Comments:

        It appears that the Department has made the needed improvements by
implementing new procedures, allowing it to take advantage of the cost recording and
reporting capabilities of the existing State accounting system. We consider this response
to be adequate to resolve the recommendations in the draft report.

Recommendation:

        We recommend that the FWS ensure that these new procedures are adequate to
track actual labor costs.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us
with your written response by November 6, 2002, to the recommendations included in
this report. If further information is needed regarding this report, please contact Gary
Dail, Federal Assistance Audit Coordinator, at (703) 487-8011.

        This Advisory Report is intended solely for the use of grant officials of the U.S.
Fish and Wildlife Service, and is not intended for, and should not be used by anyone who
is not cognizant of the procedures that were applied to the review of another audit
agency’s work.


                                            9
cc: Regional Director, Region 4
     U.S. Fish and Wildlife Service




                                      10
                                                            APPENDIX 1
                                                              Page 1 of 2

       SOUTH CAROLINA DEPARTMENT OF NATURAL RESOURCES
            FINANCIAL SUMMARY OF REVIEW COVERAGE
                JULY 1, 1996, THROUGH JUNE 30, 1998

  Grant       Grant         Claimed       Questioned
 Number      Amount          Costs       Federal Share     Notes
F-25-10         $78,850        $76,590               $0
F-25-11       1,481,000      1,481,000                 0
F-25-12         137,000        106,366           10,322     1
F-59-4          133,000        296,657                 0
F-59-5          190,000        368,977                 0
C-5-1           360,000        357,108                 0
E-1-17          198,808        252,898           18,468     2
E-1-18          214,262        269,979            6,990     3
E-1-19          184,856        256,146           20,500     4
E-1-20          182,537        273,236                 0
F-27-11          16,000         16,000                 0
F-27-12          16,000         16,256                 0
F-58-4           10,000         10,000                 0
F-58-5           10,000         10,000                 0
F-63-2        2,025,360      2,019,710                 0
F-63-3        1,993,500      2,057,767                 0
F-66-1-F        378,000        161,000                 0
F-66-1-S                       203,991                 0
F-66-2           213,000       161,023                 0
F-67-1            40,000        40,000                 0
W-1-22         1,540,000     1,381,721                 0
W-29-40           11,435        11,435                 0
W-29-41           12,120        12,120                 0
W-30-38        3,602,633     4,233,908                 0
W-30-39        3,187,700     4,106,844                 0
W-91-1           133,350       201,718                 0
W-91-2           133,350       176,080                 0
W-92-1           291,477       540,158                 0
F-29-10        1,666,667       149,453                 0
F-29-11          197,215       156,320                 0
F-29-12          253,488       214,061                 0
F-52-5            40,254        40,276                 0
F-52-6            24,000        12,555                 0
F-54-5           140,100       139,545                 0
F-54-6           146,670       145,207                 0
F-62-2           124,247       131,755                 0
F-62-3            90,667        90,667                 0
F-65-1           121,333       140,572                 0
F-65-2           121,958       137,875                 0
F-65-3           156,982       140,594                 0
V-2-1            357,900       185,066                 0
V-3-1            330,667        94,373                 0
V-4-1             98,667        11,276                 0
V-5-1            264,000        61,744                 0
V-6-1            232,000       118,058                 0
  Total      $21,141,053   $21,068,085         $56,280




                            11
                                                                          APPENDIX 1
                                                                            Page 2 of 2

Explanatory Notes:

1. These questioned costs pertain to the costs drawn down in excess of the Federal share
(Questioned Costs, 3).

2. These questioned costs include $5,000 of out-of-period transaction costs and $13,468
of costs refunded by sub-grantee (Questioned Costs, 1 and 2, respectively).

3. These questioned costs pertain to $6,990 ($5,000 and $1,990) of out-of-period costs
(Questioned Costs, 1).

4. These questioned costs relate to the $20,500 ($5,000 and $15,500) of out-of-period
costs (Questioned Costs, 1).




                                         12
                                                                              APPENDIX 2

                             MANAGEMENT ISSUES

        The working papers indicated that the Department’s purchasing, cash
management and billings, and draw down systems and related internal controls and assent
legislation, in effect during fiscal years 1997 and 1998 were adequate for Federal Aid
participation. However, the working papers identified several management issues that
the U. S. Fish and Wildlife Service and the South Carolina Department of Natural
Resources and the Marine Resources Division need to address, as follows:

A. Project Level Accounting
        The Department accumulated and reported costs at the grant level even though the
grants included multiple projects, with separate budgets. The Code of Federal
Regulations [43 CFR 12.60(b)(4)] states, “Actual expenditures or outlays must be
compared with budgeted amounts.” Consequently, project costs should be monitored and
compared to project budgets for better control of the Federal Aid grant funds. Apparently
the State’s accounting system utilized by the Department has the capability to accumulate
and report costs at the project level but the Department did not do so because it was not
required to by FWS.

        The draft report recommended that the Department establish an adequate system
and controls to account for costs at the project level. The Department responded that
costs for projects in grant proposals submitted and approved for fiscal year 2000 were
being accumulated at the project level. It maintained that during the audit period it was
not required by FWS to accumulate and report costs at the project level, and therefore
disagreed with the recommendation. If FWS requires accounting at the project level,
then the Department should use the State accounting system to satisfy the requirement.


B. License Certification

        The Department included lifetime licenses in its annual certification. The
regulation [50 CFR 80.10(c)(3)] allows licenses for multiple years to be counted each
year the license is valid if (1) net revenue is earned in the period the license is valid and
(2) there is a technique to determine whether the licensee remains a holder in the year of
certification. Apparently, the Department included such licenses in its annual
certification even though its accounting system could not compute net revenue on license
sales and had no method to eliminate license holders who died during the year. The
Department has discontinued including these licenses in the annual certification. We
consider this response to be adequate to resolve the recommendations in the draft report.




                                           13
                                                                                                                                      APPENDIX 3
                                                                                                                                        Page 1 of 2

           Findings Contained in the June 2001 Draft Report                Result of the OIG Review
                       QUANTIFIABLE ISSUES
1. Questioned Costs: Diversion of Interest on License Fees                 Included in this report as Finding B, “Interest on License Revenues” and
                                                                           quantified for only the 2 year audit period based on a decision of the
                                                                           Department of the Interior
2a. Questioned Costs for Grant E-1-17:
   Claimed Expenditures in Excess of Project Amount                        Excluded from this report because cumulative transfers did not exceed 10
                                                                           percent of the total approved grant budget
   Out-of-Period Costs                                                     Included in this report as Finding A, “Questioned Costs, 1. Out-of-Period
                                                                           Costs
   Purchased Vehicle                                                       Excluded from this report because the finding was not supported by the
                                                                           working papers
    Refunded Costs                                                         Included in this report as Finding A, “Questioned Costs, 2. Refunded Costs”
2b. Questioned Costs for Grant E-1-18:
    Claimed Expenditures in Excess of Project Amount                       Excluded from this report because cumulative transfers did not exceed 10
                                                                           percent of the total approved grant budget
   Out-of-Period Costs                                                     Included in this report as Finding A, “Questioned Costs, 1. Out-of-Period
                                                                           Costs”
2c. Questioned Costs for Grant E-1-19:
    Claimed Expenditures in Excess of Project Amount                       Excluded from this report because cumulative transfers did not exceed 10
                                                                           percent of the total approved grant budget
   Out-of-Period Costs                                                     Included in this report as Finding A, “Questioned Costs, 1. Out-of-Period
                                                                           Costs”
2d. Questioned Costs for Grant E-1-20: Claimed Expenditures in Excess of   Excluded from this report because cumulative transfers did not exceed 10
Project Amount                                                             percent of the total approved grant budget
3. Questioned Costs: Boating Access Funds                                  Included in this report as part of Finding A, “Questioned Costs, 3. Excess
                                                                           Drawdowns”




                                                                     14
                                                                                                                                        APPENDIX 3
                                                                                                                                          Page 2 of 2

                         COMPLIANCE ISSUES
1. Accounting System: Inadequate for accumulation and reporting of costs     1. Excluded from this report because the finding is not supported by the
due to problems with labor system and the following deficiencies:            working papers
   a. Project Level Accountability                                             a. Included as a management issue in Appendix 2
   b. Misclassified Coordination Costs                                         b. Excluded from this report because it is immaterial
   c. Appropriation Transfer Credits Not Reflected in Expenditure Totals       c. Excluded from this report because it is immaterial
   d. Excessive Journal Entries                                                d. Excluded from this report because it is immaterial
2a. Labor System: Inadequate Timekeeping                                     Included in this report as Finding D, “Labor System ”
2b. Labor System: Lack of Written Policies                                   Included in this report as Finding D, “Labor System ”
3a. Asset Management: Lack of Physical Inventories                           Included in this report as Finding C, “Asset Management”
3b. Asset Management: Property Records                                       Included in this report as Finding C, “Asset Management”
4. Purchasing System                                                         Noted in the Management Issues section of the report in Appendix 2
5. License Fee Collections and Disbursement System                           Excluded from this report because it relates to Finding B “Interest on License
                                                                             Revenues”
6a. License Certification: Ineligible Lifetime Licenses Included in Annual   Included as a management issue in Appendix 2
Certifications
6b. License Certification: Lack of Written Procedures for Annual License     Excluded from this report because the finding was not supported by the
Certification                                                                working papers
7. Assent Legislation                                                        Noted in the Management Issues section of the report in Appendix 2
8. Billing System Drawdowns                                                  Noted in the Management Issues section of the report in Appendix 2
9a. Foundation Costs: Legislative Audit Council Findings                     Excluded from this report because the finding was based on findings cited in
                                                                             another report and were resolved prior to the issuance of that report.
9b. Foundation Costs: Public Relations                                       Excluded from this report because the finding was not supported by the
                                                                             working papers
                          OTHER MATTERS
1.Grant Management                                                           Excluded from this report because it duplicates findings reported in other
                                                                             areas
2. Inadequate SF 269 Status Reports                                          Excluded from this report because it is immaterial
3. Inadequate Monitoring of Funds                                            Excluded from this report because it is immaterial




                                                                        15
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
